CASE NO.

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
JERRY RAY CRAINE,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS
Jerry Ray Craine, the petitioner, by and through his attorney who was

previously appointed under the Criminal Justice Act by the United States Court of
Appeals for the Tenth Circuit, moves this Court for an order allowing petitioner to
proceed in forma pauperis on his petition for writ ofcertiorari. Pursuant to Rule 39.1

of this Court and 18 U.S.C. ยง 3006A(d)(7), petitioner is not required to submit the
affidavit described in 28 U.S.C. ยง 1915(a) and prescribed in Form 4 of the Federal
Rules of Appellate Procedure.

77T/

;E EDWARD WACKENHEIM
ASSISTANT FEDERAL PUBLIC DEFENDER
SUITE 109, 215 DEAN A. McGEE AVENUE

OKLAHOMA CITY, OKLAHOMA 73102
(405) 609-5930
COUNSEL FOR PETITIONER
JERRY RAY CRAINE

CERTIFICATE OF SERVICE
I hereby certify on this 27th day of September, 2021, a true and correct copy
of the above and foregoing Motion to Proceed In Forma Pauperis was mailed to Mr.
Brian H. Fletcher, Solicitor General, Department of Justice, 950 Pennsylvania
Avenue, NW, Washington, D.C. 20530-0001, counsel for respondent, and mailed to
the office of Robert J. Troester, Acting United States Attorney for the Western

District of Oklahoma, 210 Park Avenue, Suite 400, Oklahoma City, Oklahoma 73102.

E EDWARD WACKENHEIM

